No. 20-1793
In the

Supreme Court of the United States
AURA MOODY, ON BEHALF OF
HER MINOR CHILD, J. M.,
Petitioner,
v.
NATIONAL FOOTBALL LEAGUE,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

BRIEF IN OPPOSITION

William A. Brewer III
Counsel of Record
Brewer, Attorneys & Counselors
750 Lexington Avenue, 14th Floor
New York, New York 10022
(212) 489-1400
wab@brewerattorneys.com
Counsel for Respondent

306125

A
(800) 274-3321 • (800) 359-6859

i
RESTATEMENT OF THE QUESTION
PRESENTED
1. Whether this Court has jurisdiction to review a
Petition for a Writ of Certiorari filed by a Petitioner who
lacks standing?

ii
CORPORATE DISCLOSURE STATEMENT
Pursuant to U.S. Sup. Ct. R. 29, Respondent National
Football League discloses that it has no parent corporation
and that no publicly held corporation owns 10% or more
of its stock.

iii
STATEMENT OF RELATED PROCEEDINGS
Moody v. National Football League, No. 20-1551, United
States Court of Appeals for the Second Circuit, Judgment
entered on January 21, 2021.
Moody v. National Football League, No. 15-cv-01072,
United States District Court for the Eastern District of
New York, Judgment entered on March 11, 2020.
Moody v. National Football League, No. 18-393, Supreme
Court of the United States, Judgment entered on
February 19, 2019.
Moody v. National Football League, No. 16-4315, United
States Court of Appeals for the Second Circuit, Judgment
entered on May 3, 2018.

iv
TABLE OF CONTENTS
Page
R E S TAT EM EN T OF T H E QU E S T ION
PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
Statement of the Case . . . . . . . . . . . . . . . . . . . . 1
A. Procedural Background  . . . . . . . . . . . . . . . . . . . . 5
Reasons for denying the petition  . . . . . 10
The Petition Must be Denied Because the
Petitioner Lacks Standing and the Court
Lacks Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Petitioner Is Not a Party of Record . . . . . . . . . .11
Petitioner Is Not Bound by the Trial Court’s
Determination . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

v
Table of Contents
Page
Petitioner Has No Legal Interest In the
Lower Court’s Judgment  . . . . . . . . . . . . . . . . . . 13
The Petition for a Writ of Certiorari Must
Be Denied For Lack of Jurisdiction . . . . . . . . . . 15
conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

vi
TABLE OF CITED AUTHORITIES
Page
Cases
Cent. States Se. & Sw. 8 Areas Health & Welfare
Fund v. Merck-Medco Managed Care, LLC,
504 F.3d 229 (2d Cir. 2007)  . . . . . . . . . . . . . . . . . . . . 14
Concerned Citizens of Cohocton Valley,
Inc. v. New York State Dep’t of Environ.
Conservation,
127 F.3d 201 (2d Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 10
Hispanic Soc’y of N.Y.C. Police Dep’t v.
N.Y.C. Police Dep’t,
806 F.2d 1147 (2d Cir. 1986) . . . . . . . . . . . . . . . . . . . . 11
Neitzke v. Williams,
490 U.S. 319 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
NML Capital, Ltd. v. Republic of Argentina,
727 F.3d 230 (2d Cir. 2013) . . . . . . . . . . . . . . . . . . . . . 11
Official Comm. of Unsecured Creditors of
WorldCom, Inc. v. S.E.C.,
467 F.3d 73 (2d Cir. 2006) . . . . . . . . . . . . . . . . . . .  10, 15
Vasquez v. United States,
454 U.S. 975 (1981)  . . . . . . . . . . . . . . . . . . . . . . . .  10, 15
Warth v. Seldin,
422 U.S. 490 (1975) . . . . . . . . . . . . . . . . . . . . . . . .  10, 15

vii
Cited Authorities
Page
STATUTES AND OTHER AUTHORITIES
29 U.S.C. § 794  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

1
OPINIONS BELOW
The United States Court of Appeals for the Second
Circuit’s dismissal of Petitioner’s appeal is available at
Moody v. National Football League, No. 20-1551, United
States Court of Appeals for the Second Circuit, appeal
dismissed (October 5, 2020) (Doc. 38). The United
States Court of Appeals for the Second Circuit’s denial
of Petitioner’s motion for leave to amend, to add parties,
and for relief from judgment is available at Moody v.
National Football League, No. 20-1551, United States
Court of Appeals for the Second Circuit, motion for leave
to amend, to add parties, and for relief from judgment
denied (October 5, 2020) (Doc. 39). The United States
Court of Appeals for the Second Circuit’s denial of
Petitioner’s petition for panel rehearing and rehearing en
banc is available at Moody v. National Football League,
No. 20-1551, United States Court of Appeals for the
Second Circuit, petition for panel rehearing or, in the
alternative, for rehearing en banc denied (January 21,
2021) (Doc. 50).
STATEMENT OF JURISDICTION
This Court lacks jurisdiction as Petitioner lacks
standing.
Statement of the Case
This petition for writ of certiorari (“Petition”) arises
from an “appeal” commenced by pro se Petitioner, the nonparty mother of Plaintiff, Julian Moody, in the underlying

2
action.1 In 2015, Petitioner initially commenced the
underlying suit in a representative capacity by asserting
claims on behalf of her son, who Petitioner alleged was
a minor child. 2 In truth, Petitioner’s son was an adult,
and Petitioner lacked standing to assert claims on his
behalf. Consequently, Julian Moody, as the actual party
in interest, was substituted as Plaintiff by an Amended
Complaint filed by his counsel in the District Court. 3
Thereafter, Petitioner, having neither intervened nor
asserted any claims on her own behalf, ceased to be a
party to the action in any capacity.
After mediation, the parties agreed to resolve all
matters and dismiss the action.4 Unfortunately, nonparty Petitioner objected to the resolution and engaged in
multiple attempts to revive her son’s dismissed claims on
her own.5 In September 2016, the District Court conducted
1. See Doc. Entry No. 1, Notice of Civil Appeal (Moody v.
National Football League, Court of Appeals Docket #20-1551).
2. See Doc. Entry No. 1, Summons and Complaint (Aura
Moody on behalf of her minor child, JM v. National Football
League, Supreme Court of the State of New York County of Queens
Index No. 700890/2015).
3. See Doc. Entry No. 12, Amended Complaint (Julian
Moody v. National Football League, Eastern District of New York
1:15-cv-01072-FB-PK).
4. See Doc. Entry No. 22, Order Dismissing Case and
Stipulation of Dismissal (Julian Moody v. National Football
League, Eastern District of New York 1:15-cv-01072-FB-PK).
5. See Doc. Entry No. 21 and 23, Letters from Aura Moody
(Julian Moody v. National Football League, Eastern District of
New York 1:15-cv-01072-FB-PK).

3
a status conference and subsequently confirmed, via
text order, that Petitioner’s son, with the aid of counsel,
voluntarily resolved his claims and agreed to dismiss the
case.6 The case was, therefore, resolved.7 Despite not
being a party to the underlying action, Petitioner sought
to appeal the District Court’s order, purportedly as “prose Plaintiff.”8 The United States Court of Appeals for the
Second Circuit (the “Second Circuit”) held that Petitioner
lacked standing to pursue an appeal9 and, subsequently,
the Supreme Court denied Petitioner’s petition for writ
of certiorari.10

6. The District Court’s order stated: (“ELECTRONIC
ORDER: The Court will take no further action is this case based
upon the discussion held on the record at a conference held on
September 16, 2016 whereby the plaintiff and his parents along
with counsel for both sides were present. A copy of this order will
be mailed to the plaintiff’s mother by regular mail from chambers.
Ordered by Judge Frederic Block on 12/12/2016. (Innelli,
Michael).”). See Doc. Entry No. 24, December 12, 2016 Order
(Julian Moody v. National Football League, Eastern District of
New York 1:15-cv-01072-FB-PK).
7. Id.
8. See Doc. Entry No. 1, Notice of Civil Appeal (Moody v.
National Football League, Court of Appeals Docket #16-4315).
9. See Doc. Entry No.133, Summary Order and Judgment
(Moody v. National Football League, Court of Appeals Docket
#16-4315).
10. See Moody v. National Football League, No. 18-393,
Supreme Court of the United States, Petition DENIED (December
3, 2018); see also Doc. Entry No.149, Correspondence from the
Office of the Clerk, Supreme Court of the United States (Moody
v. National Football League, Court of Appeals Docket #16-4315).

4
On February 24, 2020, Petitioner moved to vacate the
original order of the District Court and reopen the case.
Again citing the fact that Plaintiff’s claims were resolved,
the District Court denied Petitioner’s motion.11 Despite
not being a party to the underlying action, Petitioner
sought to “appeal” that order, purportedly as “pro-se
Plaintiff.”12 Petitioner also filed a motion pursuant to Rule
27 of the Federal Rules of Appellate Procedure, seeking
leave to amend the caption of the case, add other parties,
and for relief from judgment.13 The Second Circuit denied
the motion and dismissed the appeal because it “lack[ed]
an arguable basis either in law or in fact.”14 Shortly
thereafter, the Second Circuit denied Petitioner’s motion
for reconsideration and request for rehearing en banc.15
Now, Petitioner files a petition for writ of certiorari for
11. See Doc. Entry No. 40, March 11, 2020 Order (Julian
Moody v. National Football League, Eastern District of New York
1:15-cv-01072-FB-PK) (“ELECTRONIC ORDER: The plaintiff’s
mother’s pro se motion [40] to vacate the judgment and re-open
the case are DENIED for the reasons stated on the record at the
a conference held on September 15, 2016. A copy of this order will
be mailed to the plaintiff’s mother by regular mail from chambers.
Ordered by Judge Frederic Block on 3/11/2020. (Innelli, Michael)
Modified on 3/11/2020 (Innelli, Michael).”).
12. See Doc. Entry No. 1, Notice of Civil Appeal (Moody v.
National Football League, Court of Appeals Docket #20-1551).
13. See Doc. Entry No. 15, Motion (Moody v. National
Football League, Court of Appeals Docket #20-1551).
14. See Doc. Entry No.51, Mandate Order denying motion for
leave to amend, to add parties, and for relief from judgment and
dismissing appeal (Moody v. National Football League, Court of
Appeals Docket #20-1551).
15. See Doc. Entry No.50, Order denying motion for
reconsideration and request for rehearing en banc (Moody v.
National Football League, Court of Appeals Docket #20-1551).

5
an appeal of the Second Circuit’s dismissal. The Petition
should be denied for lack of jurisdiction because Petitioner,
who is not a party to the underlying case, lacks standing.
A. Procedural Background
In 2015, Petitioner, through counsel, brought a
discrimination action against the National Football League
(“NFL”) on behalf of her son, Julian Moody, in the Supreme
Court of New York, alleging that the NFL violated the
Rehabilitation Act, 29 U.S.C. § 794.16 The case was removed
to the District Court and, shortly thereafter, the parties
and District Court learned that Julian was an adult.17 The
complaint was amended to substitute Julian as the sole
plaintiff.18 On August 12, 2016, Julian, with the assistance
of counsel, reached an agreement with the NFL and
voluntarily dismissed the action.19 Non-party Petitioner
objected to her son’s decision and wrote letters to the trial
court seeking to vacate the settlement agreement.20
16. See Doc. Entry No. 1, Summons and Complaint (Aura
Moody on behalf of her minor child, JM v. National Football
League, Supreme Court of the State of New York County of Queens
Index No. 700890/2015).
17. See Doc. Entry No. 1, Notice of Removal (Julian Moody v.
National Football League, Eastern District of New York 1:15-cv01072-FB-PK).
18. See Doc. Entry No. 12, Amended Complaint (Julian
Moody v. National Football League, Eastern District of New York
1:15-cv-01072-FB-PK).
19. See Doc. Entry No. 22, Order Dismissing Case and
Stipulation of Dismissal (Julian Moody v. National Football
League, Eastern District of New York 1:15-cv-01072-FB-PK).
20. See Doc. Entry No. 21 and 23, Letters from Aura Moody
(Julian Moody v. National Football League, Eastern District of
New York 1:15-cv-01072-FB-PK).

6
On December 12, 2016, the District Court (Block, J.)
entered an order (the “December 12, 2016 Order”) stating
that it would “take no further action in this case based
upon the discussion held on the record at a conference held
on September 16, [sic] 2016 whereby the plaintiff and his
parents along with counsel for both sides were present.” 21
The Court stated the following at the conference on
September 15, 2016:
So, Mrs. Moody, he was capable to understand
what was happening and he had the capacity
to agree or disagree. I know you’re his caring
mother, but you were not the party to this
litigation and your son wanted to do this. You
have to respect his judgment. He’s a grown man
and, you know, you’ve got to let go of the apron
strings it seems a little bit here. So he entered
into this thing knowingly and voluntarily. 22
...
21. See Doc. Entry No. 24, December 12, 2016 Order (Julian
Moody v. National Football League, Eastern District of New York
1:15-cv-01072-FB-PK) (“ELECTRONIC ORDER: The Court will
take no further action is this case based upon the discussion held
on the record at a conference held on September 16, 2016 whereby
the plaintiff and his parents along with counsel for both sides were
present. A copy of this order will be mailed to the plaintiff’s mother
by regular mail from chambers. Ordered by Judge Frederic Block
on 12/12/2016. (Innelli, Michael).”).
22. See Doc. Entry No. 25, Transcript of Status Conference
held on September 15, 2016 at Page 6, ¶¶ 3-10 (Julian Moody v.
National Football League, Eastern District of New York 1:15-cv01072-FB-PK).

7
Mrs. Moody, I’ve gone about as far as I’m
going to go. My concern was to welcome you
to court and to see whether or not there’s a
problem here with your son. He seems to be
a fine young man. This is what he wants. You
have to respect that and I hope that you can do
that. There’s nothing that the law can do for
you. I just want you to understand that, under
the circumstances. Your son has told me that
he was treated fairly and nobody forced him to
agree to this. He was represented by counsel.
I think you have to respect that. 23
On December 30, 2016, Petitioner filed a notice of appeal
from the December 12, 2016 Order to the Second Circuit. 24
On February 15, 2018, the Second Circuit dismissed
the appeal of the District Court’s December 12, 2016
Order for lack of appellate jurisdiction because Petitioner
lacked standing because Petitioner was not a party to the
litigation and, further, (i) Petitioner was not bound by the
District Court’s order, which pertained only to Julian’s
(Petitioner’s son) claim and (ii) Petitioner did not identify
any legal interest of her own that may be plausibly said
to be affected by the order. 25 On September 24, 2018,
23. See Doc. Entry No. 25, Transcript of Status Conference
held on September 15, 2016 at Page 10, ¶¶ 14-23 (Julian Moody v.
National Football League, Eastern District of New York 1:15-cv01072-FB-PK).
24. See Doc. Entry No. 1, Notice of Civil Appeal (Moody v.
National Football League, Court of Appeals Docket #16-4315).
25. See Doc. Entry No.133, Summary Order and Judgment
(Moody v. National Football League, Court of Appeals Docket
#16-4315).

8
Petitioner filed her first petition for a writ of certiorari,
which this Court denied on December 3, 2018. 26
On February 24, 2020, Petitioner filed a motion in the
District Court to vacate the December 12, 2016 Order and
reopen the case. 27 On March 11, 2020, the District Court
again entered an order28 (the “March 11, 2020 Order”)
denying Petitioner’s motion for the same reasons as the
December 12, 2016 Order. 29
On May 13, 2020, Petitioner filed a notice of appeal
from the March 11, 2020 Order to the United States
Court of Appeals for the Second Circuit. 30 On June 3,
26. See Moody v. National Football League, No. 18-393,
Supreme Court of the United States (December 3, 2018).
27. See Doc. Entry No. 40, Motion to Vacate (Julian Moody v.
National Football League, Eastern District of New York 1:15-cv01072-FB-PK).
28. See Doc. Entry No. 40, March 11, 2020 Order (Julian
Moody v. National Football League, Eastern District of New York
1:15-cv-01072-FB-PK) (“ELECTRONIC ORDER: The plaintiff’s
mother’s pro se motion [40] to vacate the judgment and re-open
the case are DENIED for the reasons stated on the record at the
a conference held on September 15, 2016. A copy of this order will
be mailed to the plaintiff’s mother by regular mail from chambers.
Ordered by Judge Frederic Block on 3/11/2020. (Innelli, Michael)
Modified on 3/11/2020 (Innelli, Michael).”).
See Doc. Entry No. 1, Notice of Civil Appeal (Moody v.
National Football League, Court of Appeals Docket #20-1551).
29. See Doc. Entry No. 22, Order Dismissing Case and
Stipulation of Dismissal (Julian Moody v. National Football
League, Eastern District of New York 1:15-cv-01072-FB-PK).
30. See Doc. Entry No. 1, Notice of Civil Appeal (Moody v.
National Football League, Court of Appeals Docket #20-1551).

9
2020, Petitioner filed a motion pursuant to Rule 27 of the
Federal Rules of Appellate Procedure, seeking leave to
amend the caption of the case, to add other parties, and
for relief from judgment. 31 On August 4, 2020, Petitioner
filed an addendum to the motion. 32 Because the case was
disposed, and because NFL counsel changed personnel,
the NFL inadvertently failed to update the Notice of
Appearance. After receiving a call from the Court’s Clerk,
counsel for the NFL filed an Acknowledgement on July 16,
2020, and an Acknowledgement and Notice of Appearance
on July 17, 2020. 33
On October 5, 2020, the Second Circuit denied the
motion to amend the caption of the case, to add other
parties, and for relief from judgment and dismissed
the appeal for lack of “an arguable basis either in law
or in fact.” 34 On January 21, 2021, the Second Circuit
31. See Doc. Entry No. 15, Motion (Moody v. National
Football League, Court of Appeals Docket #20-1551).
32. See Doc. Entry No. 30, Supplementary Papers to Motion
(Moody v. National Football League, Court of Appeals Docket
#20-1551).
33. See Doc. Entry No. 24 and 26, Notice of Appearance
as Substitute Counsel and Acknowledgement and Notice of
Appearance (Moody v. National Football League, Court of
Appeals Docket #20-1551).
34. See Doc. Entry No.51, Mandate Order denying motion
for leave to amend, to add parties, and for relief from judgment
and dismissing appeal (Moody v. National Football League, Court
of Appeals Docket #20-1551); see also Doc. Entry Nos. 38, 39,
Order denying motion for leave to amend, to add parties and for
relief from judgment and dismissing appeal (Moody v. National
Football League, Court of Appeals Docket #20-1551).

10
summarily denied Petitioner’s motion for reconsideration
and request for rehearing en banc. 35
On June 18, 2021, Petitioner filed this Petition,
seeking leave to appeal the Second Circuit’s denial—her
second petition for a writ of certiorari regarding the
same underlying facts and dispute. The Petition should
be denied because, as the District Court and the Second
Circuit have each already held, Petitioner lacks standing
and this Court lacks jurisdiction to hear the appeal.
Reasons for denying the petition
The Petition Must be Denied Because the Petitioner
Lacks Standing and the Court Lacks Jurisdiction
It is “sound practice [] to deny a petition for certiorari
when the facts do not firmly establish that the petitioner
has standing to raise the question presented.” Vasquez
v. United States, 454 U.S. 975, 977 n.3 (1981); Warth v.
Seldin, 422 U.S. 490, 498 (1975) (standing “is the threshold
question in every federal case, determining the power of
the court to entertain the suit”). Similarly, an appellant
must have standing to pursue an appeal in the Court of
Appeals and for the Court of Appeals to have appellate
jurisdiction. Concerned Citizens of Cohocton Valley, Inc.
v. New York State Dep’t of Environ. Conservation, 127
F.3d 201, 204 (2d Cir. 1997); Official Comm. of Unsecured
Creditors of WorldCom, Inc. v. S.E.C., 467 F.3d 73, 77
(2d Cir. 2006) (Sotomayor, J.) (“Standing to appeal is an
35. See Doc. Entry No.50, Order denying motion for
reconsideration and request for rehearing en banc (Moody v.
National Football League, Court of Appeals Docket #20-1551).

11
essential component of [] appellate jurisdiction.”). Only
a party of “record in a lawsuit has standing to appeal
from a judgment of the district court.” Hispanic Soc’y
of N.Y.C. Police Dep’t v. N.Y.C. Police Dep’t, 806 F.2d
1147, 1152 (2d Cir. 1986). “Parties of record include the
original parties and those who have become parties by
intervention, substitution, or third-party practice.” Id.
Exceptions to this rule may allow non-parties to have
standing “where the non-party is bound by the judgment
and where the non-party has an interest plausibly affected
by the judgment.” NML Capital, Ltd. v. Republic of
Argentina, 727 F.3d 230, 239 (2d Cir. 2013). Petitioner
lacks standing because Petitioner is not a party of record
in the litigation, is not bound by the District Court’s order,
and has not identified a legal interest of her own that may
plausibly be said to be affected.
Petitioner Is Not a Party of Record
First, Petitioner is not a party of record in the
litigation. See Doc. Entry No.51, Mandate Order denying
motion for leave to amend, to add parties, and for relief
from judgment and dismissing appeal (Moody v. National
Football League, Court of Appeals Docket #20-1551) (the
appeal “lacks an arguable basis either in law or in fact”)
(citing Neitzke v. Williams, 490 U.S. 319, 325 (1989)).
While Petitioner initially brought a discrimination suit
on behalf of her son, Julian, it later “came to light that
Julian was an adult, and the complaint was amended to
substitute Julian as the sole plaintiff.” 36 The actual party
36. See Doc. Entry No.133, Summary Order and Judgment
at Page 2, ¶¶ 17-20 (Moody v. National Football League, Court
of Appeals Docket #16-4315).

12
of record—i.e., Petitioner’s son Julian Moody—indicated
that he does not wish to continue the case at the conference
held on September 15, 2016. 37 The Second Circuit and this
Court rightly denied Petitioner’s first attempts to appeal
any issues arising out of the underlying litigation. See Doc.
Entry No.133, Summary Order and Judgment (Moody
v. National Football League, Court of Appeals Docket
#16-4315); see Moody v. National Football League, No.
18-393, Supreme Court of the United States (December
3, 2018). This Petition, which seeks to appeal the lower
court’s determination on a motion to vacate, is the same
issue repackaged. Petitioner remains a non-party to this
case. Accordingly, Petitioner has no standing to appeal.
Petitioner Is Not Bound by the Trial Court’s
Determination
Second, Petitioner is not bound by the District Court’s
order from which she attempts to appeal. Petitioner
appeals from the March 11, 2020 Order, which denied
Petitioner’s motion to vacate the judgment and re-open
the case. The March 11, 2020 Order affects the rights of
her son, Julian Moody. The March 11, 2020 Order denied
Petitioner’s attempt to disturb the agreement reached by
Julian Moody, through counsel, and the NFL and Julian’s
subsequent decision to voluntarily dismiss the action. 38
37. See Doc. Entry No. 25, Transcript of Status Conference
held on September 15, 2016 at Page 9, ¶¶ 19-25 (Julian Moody v.
National Football League, Eastern District of New York 1:15-cv01072-FB-PK).
38. See Doc. Entry No. 40, March 11, 2020 Order (Julian
Moody v. National Football League, Eastern District of New
York 1:15-cv-01072-FB-PK) (“ELECTRONIC ORDER: The

13
Accordingly, Petitioner is not bound by the order and for
that reason lacks standing to appeal.
Petitioner Has No Legal Interest In the Lower
Court’s Judgment
Third, Petitioner has not identified—nor can she
identify—a legal interest of her own that can plausibly be
said to be affected by the judgment. Petitioner claims that
she is an interested party who has a right to be a named
plaintiff in the case because she “has been anguished and
spent a great amount of money and time while dealing with
this case.” 39 However, as the Second Circuit held, “Mrs.
plaintiff’s mother’s pro se motion [40] to vacate the judgment
and re-open the case are DENIED for the reasons stated on the
record at the a conference held on September 15, 2016. A copy of
this order will be mailed to the plaintiff’s mother by regular mail
from chambers. Ordered by Judge Frederic Block on 3/11/2020.
(Innelli, Michael) Modified on 3/11/2020 (Innelli, Michael).”); Doc.
Entry No. 25, Transcript of Status Conference held on September
15, 2016, at Page 9, ¶¶ 12-25 (Julian Moody v. National Football
League, Eastern District of New York 1:15-cv-01072-FB-PK)
(Julian Moody confirms that he does not “want [the court] to do
anything,” “to get a lawyer to open up this whole case against
the NFL and to relitigate it and to do all of that”); Doc. Entry No.
22, Order Dismissing Case and Stipulation of Dismissal (Julian
Moody v. National Football League, Eastern District of New York
1:15-cv-01072-FB-PK); see also Doc. Entry No.133, Summary
Order and Judgment at Page 2, ¶¶ 17-20 (Moody v. National
Football League, Court of Appeals Docket #16-4315) (“Julian,
through counsel, then reached an agreement with the NFL and,
on August 12, 2016, voluntarily dismissed the action under Federal
Rule of Civil Procedure 41(a)(1)(A)(ii).”).
39. See Doc. Entry No. 15, Motion at Page 13, ¶ 30 (Moody
v. National Football League, Court of Appeals Docket #20-1551).

14
Moody’s legal rights [were not] affected by the stipulation
with the NFL to which Julian agreed”40 and in the
second, dismissed appeal when the United States Court
of Appeals for the Second Circuit ruled that Petitioner’s
appeal “lack[ed] an arguable basis either in law or in
fact.”41 Petitioner’s argument that she somehow has an
interest in the vacatur of the original order to which she
had no interest in the first place is meritless. Petitioner’s
alleged “interests,” which rely exclusively on the resources
she has devoted to attempting to litigate a case, in which
she no legal interest, are not legally recognized interests
for standing purposes. They have nothing to do with the
application of the underlying order, which affects only her
son. See Cent. States Se. & Sw. 8 Areas Health & Welfare
Fund v. Merck-Medco Managed Care, LLC, 504 F.3d
229, 244 (2d Cir. 2007) (holding that non-party appellant
lacked standing because it “would possess the same legal
rights . . . whether or not the Settlement Agreement
were approved”). Accordingly, because Petitioner lacks
any rights or interests that were affected by the order,
Petitioner lacks standing.

40. See Doc. Entry No.133, Summary Order and Judgment
at Page 4, ¶¶ 6-7 (Moody v. National Football League, Court of
Appeals Docket #16-4315).
41. See Doc. Entry No.51, Mandate Order denying motion
for leave to amend, to add parties, and for relief from judgment
and dismissing appeal (Moody v. National Football League, Court
of Appeals Docket #20-1551); see also Doc. Entry No.50, Order
denying motion for reconsideration and request for rehearing
en banc (Moody v. National Football League, Court of Appeals
Docket #20-1551).

15
The Petition for a Writ of Certiorari Must Be
Denied For Lack of Jurisdiction
This Court has jurisdiction only if Petitioner has
standing. Warth v. Seldin, 422 U.S. 490, 498 (1975)
(standing “is the threshold question in every federal
case, determining the power of the court to entertain the
suit”); see also Official Comm. of Unsecured Creditors
of WorldCom, Inc. v. S.E.C., 467 F.3d 73, 77 (2d Cir.
2006) (Sotomayor, J.) (“Standing to appeal is an essential
component of [] appellate jurisdiction.”). As Petitioner
lacks standing, the petition for writ of certiorari must be
denied for lack of jurisdiction. Vasquez v. United States,
454 U.S. 975, 977 n.3 (1981) (“It is sound practice [] to
deny a petition for certiorari when the facts do not firmly
establish that the petitioner has standing to raise the
question presented.”).
conclusion
For the foregoing reasons, the Petition for Writ of
Certiorari should be denied.
Dated: July 23, 2021

Respectfully submitted,
William A. Brewer III
Counsel of Record
Brewer, Attorneys & Counselors
750 Lexington Avenue, 14th Floor
New York, New York 10022
(212) 489-1400
wab@brewerattorneys.com
Counsel for Respondent

